CERTIFICATE OF SERVICE
No. 20-1088
David and Amy Carson, as Parents and Next Friends of O.C., et al.,
Petitioners,
v.
A. Pender Makin, in her Official Capacity as Commissioner of the Maine
Department of Education,
Respondent.
I, Gordon D. Todd, do hereby certify that, on this tenth day of September,
2021, I caused three copies and an electronic copy of the Brief of the Union of
Orthodox Jewish Congregations of America as Amicus Curiae in Support of
Petitioners in the foregoing case to be served by first class mail, postage prepaid,
and by email, on the following parties:
MICHAEL EUGENE BINDAS
INSTITUTE FOR JUSTICE
600 University Street
Suite 1730
Seattle, WA 98101
(206) 957-1300
mbindas@ij.org
Counsel for Petitioners

SARAH ANN FORSTER
OFFICE OF THE ATTORNEY GENERAL
6 State House Station
Augusta, ME 04333
(207) 626-8866
sarah.forster@maine.gov
Counsel for Respondent

/s/ Gordon D. Todd
GORDON D. TODD
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

